       FINDINGS AND RECOMMENDATIONS TO THE
              CHIEF FINANCIAL OFFICER
           AS A RESULT OF AN AUDIT OF THE
             U.S. DEPARTMENT OF LABOR'S
    REPORT ON PERFORMANCE AND ACCOUNTABILITY

                      SEPTEMBER 30, 2003




This audit was performed by CPAs under contract to the Office of
Inspector General, and by acceptance, it becomes a report of the
Office of Inspector General.

________________________________
Assistant Inspector General for Audit




                                        Report Number: 22-04-002-13-001
                                        Date Issued: March 31, 2004




               R. Navarro & Associates, Inc.
                  Certified Public Accountants
                                                                               CFO FINDINGS AND RECOMMENDATIONS


ACRONYMS.................................................................................................................................................ii


INDEPENDENT AUDITORS’ REPORT ON THE FINDINGS
AND RECOMMENDATIONS TO THE CHIEF FINANCIAL OFFICER AS A RESULT
OF AN AUDIT OF THE US DEPARTMENT OF LABOR’S REPORT ON
PERFORMANCE AND ACCOUNTABILITY ...........................................................................................1


FINDINGS AND RECOMMENDATIONS RELATED TO
COMPLIANCE WITH LAWS AND REGULATIONS

     1. MANAGERIAL COST ACCOUNTING .....................................................................................4


FINDINGS AND RECOMMENDATIONS RELATED TO
REPORTABLE CONDITIONS

     1. PROPERTY AND EQUIPMENT.................................................................................................5

     2. ACCOUNTING FOR GRANTS .................................................................................................18

     3. UNEMPLOYMENT TRUST FUND ..........................................................................................23

     4. FEDERAL EMPLOYEES COMPENSATION ACT ...............................................................24

MANAGEMENT ADVISORY COMMENTS

     1. JOB CORPS PROGRAM ...........................................................................................................27

     2. ACCOUNTING FOR GRANTS .................................................................................................28

     3. UNEMPLOYMENT TRUST FUND ..........................................................................................30

     4. PROCUREMENT ........................................................................................................................32

     5. BLACK LUNG DISABILITY TRUST FUND ..........................................................................33

     6. FEDERAL EMPLOYEES COMPENSATION ACT ...............................................................34

     7. PERFORMANCE MEASURES .................................................................................................37

     8. PROPERTY AND EQUIPMENT...............................................................................................38




Report No. 22-04-002-13-001                                                                                                                            i
                                                 CFO FINDINGS AND RECOMMENDATIONS


                                       ACRONYMS
A&E          Architecture and Engineering
A/OPC        Agency/Organization Program Coordinators
APO          Accountable Property Officer
BAM          Benefit Accuracy Measurement
BLS          Bureau of Labor Statistics
BPC          Benefit Payment Control
BPS          Bill Payment System
CAMO         Capitalized Asset Management Officer
CATARS       Capitalized Asset Tracking and Reporting System
CE           Claims Examiner
CFO          Chief Financial Officer
CFR          Code of Federal Regulations
CIP          Construction in Progress
COTS         Commercial Off the Shelf
CT           Career Transition
CTS          Career Transition Services
DBFS         Division of Budget and Facilities Support
DCMWC        Division of Coal Mine Workers’ Compensation
DFSS         Division of Financial Systems and Services
DHHS/PMS     Department of Health and Human Services, Payment Management System
DLMS         Department of Labor Manual Series
DOL          U. S. Department of Labor
DOLAR$       Department of Labor Accounting and Related Systems
DWCFF        Division of Working Capital Fund Financing
EDP          Electronic Data Processing
EIMS         Enterprise Information Management System
EPMS         Electronic Property Management System
ESA          Employment Standards Administration
ETA          Employment and Training Administration
ETO          Employment and Training Order
FECA         Federal Employees Compensation Act
FFMIA        Federal Financial Management Improvement Act
FMRS         Financial Management Reporting System
FPO          Federal Project Officer
GAAP         Generally Accepted Accounting Principles
GAO          General Accounting Office
GED          General Educational Development
GPRA         Government Performance and Results Act
JC           Job Corps
JCDC         Job Corps Data Center
JFMIP        Joint Financial Management Improvement Program
JTPA         Job Training Partnership Act
MCA          Managerial Cost Accounting
OAPS         Office of Accounting and Payments Services
OASAM        Office of the Assistant Secretary for Administration and Management
OCFO         Office of the Chief Financial Officer
OFAS         Office of Financial and Administrative Services
OGCM         Office of Grants and Contract Management



Report No. 22-04-002-13-001                                                        ii
                                                 CFO FINDINGS AND RECOMMENDATIONS


OIG          Office of Inspector General
OMB          Office of Management and Budget
OWCP         Office of Workers' Compensation Programs
OWS          Office of Workforce Security
PMO          Property Management Officer
PP&E         Property, Plant and Equipment
PRH          Policy and Requirements Handbook
RMO          Responsible Mine Operator
SFFAS        Statement of Federal Financial Accounting Standards
SPAMIS       Student Pay Allotment and Management Information System
SSA          Social Security Administration
UCAC         Unemployment Compensation Advisory Council
UI           Unemployment Insurance
UIDB         Unemployment Insurance Data Base
UIDV         Unemployment Insurance Data Validation
UIS          Unemployment Insurance Service
VETS         Veterans’ Employment and Training Services
WCF          Working Capital Fund
WIA          Workforce Investment Act




Report No. 22-04-002-13-001                                                   iii
Mr. Samuel T. Mok
Chief Financial Officer
U. S. Department of Labor
Washington, DC 20210


               Independent Auditors’ Report to the Chief Financial Officer as a Result
                     of an Audit of the U.S. Department of Labor’s Report on
                                 Performance and Accountability


We have audited the Report on Performance and Accountability of the United States Department of Labor
(DOL) for the year ended September 30, 2003, and have issued our report thereon dated
December 18, 2003. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.

In planning and performing our audit, we considered DOL’s internal control over financial reporting by
obtaining an understanding of the Department’s internal control, determined whether internal controls had
been placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to provide
assurance on internal control. Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are
matters coming to our attention relating to significant deficiencies in the design or operation of the
internal control that, in our judgment, could adversely affect the organization’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being audited may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. We noted certain matters, discussed in the
following pages, involving the internal control and its operation that we consider to be reportable
conditions and other conditions considered to be management advisory comments.
                                                      CFO FINDINGS AND RECOMMENDATIONS


With respect to internal control related to performance measures reported in the Department’s FY 2003
Report on Performance and Accountability, we obtained an understanding of the design of significant
internal controls relating to the existence and completeness assertions and determined whether they have
been placed in operation, as required by OMB Bulletin No. 01-02. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and, accordingly, we do not
provide an opinion on such controls.

This report does not contain current or prior year findings and recommendations pertaining to the audit of
the Department’s general controls and security over Electronic Data Processing (EDP) systems that
support the financial statements in accordance with General Accounting Office (GAO) audit guidelines.
A separate report is being issued by the Office of Inspector General (OIG) to the Chief Information
Officer containing EDP related findings and recommendations for resolution.

The Independent Auditors’ Report, which expresses our opinion on the fair presentation of DOL’s
FY 2003 principal financial statements, and our reports on internal control and compliance with laws and
regulations, are presented in the Department’s FY 2003 Report on Performance and Accountability.

In order to provide information to management that could help in the development of responses and
corrective actions for the instances of noncompliance and reportable conditions and other conditions
noted (management advisory comments), we are providing the following findings and recommendations
to the Chief Financial Officer (CFO).

This report is intended solely for the information and use of the management of the DOL, OMB and
Congress, and is not intended to be used and should not be used by anyone other than these specified
parties.


December 18, 2003




Report No. 22-04-002-13-001                                                                            2
                                                          CFO FINDINGS AND RECOMMENDATIONS



The following chart summarizes the open recommendations by area of concern and the year first
identified:

                          FY     FY     FY     FY     FY     FY     FY     FY     FY     FY     FY     FY    Total
  AUDIT AREA             1992   1993   1994   1995   1996   1997   1998   1999   2000   2001   2002   2003   Open

 Compliance with
 Laws and
 Regulations:
 Managerial Cost
                                                                                                1             1
 Accounting
 Reportable
 Conditions:
 Property and
                                                                           1             4             5      10
 Equipment

 Accounting for Grants                                                     3                                  3

 Unemployment Trust
                                                                                         1                    1
 Fund
 Federal Employees
                                                                                                       1      1
 Compensation Act
 Management
 Advisory
 Comments:
 Job Corps Data Center
                                                                                                       1      1
 Operations

 Accounting for Grants                                1                                  1                    2

 Unemployment Trust
                                                             1                    2                           3
 Fund

 Procurement                                                               3                                  3

 Black Lung Disability
                                                                           1                                  1
 Trust Fund
 Federal Employees
                                                                                                       2      2
 Compensation Act
 Performance
                          2                                                                                   2
 Measures
 Property and
                                                                                                       1      1
 Equipment

 Total Open
                          2                           1      1             8      2      6      1     10      31
 Recommendations




Report No. 22-04-002-13-001                                                                            3
Compliance with Laws and Regulations
                                                    CFO FINDINGS AND RECOMMENDATIONS



1.     Managerial Cost Accounting

       Prior Year Findings and Recommendations

       Implementation of Managerial Cost Accounting

       In the FY 2002 audit (OIG Report No. 22-03-003-13-001), the OIG reported that DOL was not in
       compliance with the requirements for managerial cost accounting (MCA) contained in Statement
       of Federal Financial Accounting Standards (SFFAS) No. 4. Specifically, DOL had not defined
       outputs for its operating programs nor developed the capability to routinely report the cost of
       outputs at the operating program and activity levels. Further, DOL did not adequately link cost
       information to performance measures at the operating program level for use in managing program
       operations on a routine basis or use managerial cost information for purposes of performance
       measurement, planning, budgeting or forecasting.

       The determination that DOL did not comply with SFFAS No. 4 led to a conclusion that DOL did
       not substantially comply with the requirements of the Federal Financial Management
       Improvement Act (FFMIA). [DOL management concurred with the majority of our identified
       managerial cost accounting deficiencies; however, the Secretary of Labor disagreed with our
       conclusion on compliance with FFMIA and maintained that DOL financial management systems
       were in substantial compliance with FFMIA.]

       The FY 2002 report included the following recommendation:

          •    We recommend that the Chief Financial Officer ensure the full implementation of the
               comprehensive Department-wide plan as described in the above recommendation by
               January 28, 2006.

       In FY 2003 management developed a comprehensive plan to implement MCA within the
       Department. The plan provides an overall strategy for MCA implementation and high-level plans
       for individual agencies to initiate and execute in order to move toward meeting DOL’s MCA
       needs. It calls for a 14-month timeframe to implement the initial MCA capability throughout
       DOL.

       This recommendation is resolved and open pending full implementation of the MCA plan.
       While management continues to maintain that the Department’s financial management systems
       are in substantial compliance with the FFMIA, our determination that the Department is not
       currently in compliance with SFFAS No. 4, and consequently not in substantial compliance with
       FFMIA, will remain until the managerial cost accounting system is fully implemented.

       Management’s Response

       “In accordance with the provisions and requirements of the Act and the OMB guidance thereon,
       the Secretary of Labor has again determined that the Department's financial systems are in
       substantial compliance with the FFMIA.”

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.


Report No. 22-04-002-13-001                                                                       4
Reportable Conditions
                                                       CFO FINDINGS AND RECOMMENDATIONS


                                     Reportable Conditions

1.     Property and Equipment
       Current Year Findings and Recommendations

       Job Corps Real Property

       DOL owns a significant amount of real property, which is capitalized and depreciated in the
       Department’s accounting records, and is reported in the Department’s financial statements. Most
       of the real property consists of land, buildings, leasehold improvements, and other structures
       located at contractor-operated Job Corps centers. Responsibility for managing and tracking Job
       Corps’ real property has been delegated to two offices within the Employment and Training
       Administration (ETA). The Office of Job Corps’ Division of Budget and Facilities Support
       (DBFS) is responsible for overseeing property management at the centers. The Office of
       Financial and Administrative Services (OFAS) is responsible for updating the property subsidiary
       system, the Capitalized Assets Tracking and Reporting System (CATARS), based on
       documentation received from DBFS. OFAS is also responsible for reconciling CATARS to the
       general ledger Department of Labor Accounting and Related Systems (DOLAR$).

       Our audit found that OFAS did not sufficiently utilize CATARS as a complete property
       management system in accordance with the CATARS user guide, and did not establish sufficient
       controls to ensure that Job Corps’ capitalized real property was safeguarded and accurately
       reported in CATARS and DOLAR$. Specifically, we found the following:

           •   Annual physical inventories were not performed.
           •   Certain capitalized additions and dispositions were not recorded in CATARS or the
               general ledger (DOLAR$).
           •   Property descriptions included in CATARS were not sufficient to verify existence and
               condition of the corresponding asset.
           •   Land reported in the general ledger did not agree with what was recorded in CATARS.

       The following is a discussion of the conditions identified in our audit.

       Annual Physical Inventories Were Not Performed

       Physical inventories of Job Corps’ capitalized real property are not conducted at the end of each
       fiscal year in order to verify that the capitalized assets recorded in CATARS are actually on site
       and in usable condition. This is not in compliance with the U.S. DOL CATARS User Guide,
       Sections 2.7 and 2.72, which state respectively:

           Annual reconciliations must be performed between physical counts of property and
           balances recorded in the CATARS and DOLAR$ systems.

           Physical counts of property are conducted at the end of each fiscal year to compare
           the capitalized assets recorded on the books with those actually on site.

       OFAS representatives told us they rely on facility site surveys performed by a Job Corps’
       architecture and engineering (A&E) contractor to ensure the existence of Job Corps’ real
       property. The facility site surveys are performed at each Job Corps center once every 3 years


Report No. 22-04-002-13-001
                                                                                                       5
                                                      CFO FINDINGS AND RECOMMENDATIONS


       and are used to assess Job Corps’ capital needs, giving priority to such factors as safety and health
       improvements, handicapped accommodations, and other site structural needs. Job Corps
       management uses these surveys to make decisions on how to best utilize their construction
       budget.

       For financial statement purposes, annual physical inventories should be used to support
       management’s assertions as to the completeness, existence and valuation of the assets reported in
       the financial statements. This is accomplished by verifying the physical existence and condition
       of property via onsite inspections, and reconciling the specific items inventoried to those recorded
       in the subsidiary and general ledger systems. Physical inventories are also used as a means to
       ensure that assets are properly safeguarded against waste, loss, unauthorized use, or
       misappropriation, as required by the Federal Financial Management Improvement Act of 1996
       (31 U.S.C. 3512(c), (B)).

       The facility site surveys performed for Job Corps real property did not provide these critical
       inventory controls because information obtained in the physical inspections was not associated,
       cross-referenced, or reconciled with property information recorded in CATARS and the
       corresponding balances recorded in DOLAR$. As a result, Job Corps real property was not
       sufficiently safeguarded against waste, loss, unauthorized use, or misappropriation, and was not
       accurately recorded in the Department’s financial statements as discussed in further detail
       throughout this finding.

       OFAS officials agreed that the site surveys were not sufficient and should not serve as a substitute
       for the annual physical inventory. We were informed that OFAS was in the process of
       conducting an inventory, which they expect to complete by December 31, 2003.

       Certain Capitalized Property Additions and Dispositions Were Not Recorded in CATARS
       or the General Ledger (DOLAR$)

       When construction of Job Corps real property is completed, DBFS provides OFAS with a copy of
       the “Certificate of Substantial Completion.” This notifies OFAS that the property has been
       placed in service and is ready to be entered into CATARS as a depreciable capital asset. Our
       tests of 48 construction in progress (CIP) contracts recorded both in DOLAR$ and CATARS
       indicated that 22 contracts (46 percent) with a cost basis in excess of $28 million were not
       transferred from CIP to the appropriate depreciable asset account. Certificates of Substantial
       Completion were issued for all structures completed under the 22 contracts.

       DBFS officials informed us that two of the 22 contracts not transferred from CIP to the
       depreciable asset accounts were the subject of pending legal claims. However, it is our position
       that these contracts should be transferred to depreciable asset accounts because the assets were
       completed and placed in service. If additional costs are incurred due to a legal settlement, such
       costs can subsequently be added to the basis of the building.

       SFFAS No. 6, paragraph 34, states in part:

           In the case of constructed Property, Plant and Equipment (PP&E), the PP&E shall be
           recorded as construction work in process until it is placed in service, at which time
           the balance shall be transferred to general PP&E.




Report No. 22-04-002-13-001                                                                            6
                                                     CFO FINDINGS AND RECOMMENDATIONS


       We also determined that real property dispositions were not consistently recorded in
       CATARS or the Department’s general ledger. For the 12 Job Corps centers visited
       during our audit, we compared the capitalized real property in CATARS to the facility
       site surveys and followed up with DBFS officials on differences found. We identified 13
       real property items with a cost of $2.0 million and a net book value over $386,000 that
       had been disposed or were no longer in use. These items were still recorded as
       depreciable property in CATARS as of July 31, 2003. For example, at the Cassadaga Job
       Corps Center, we found that two real property items, both identified in CATARS as
       “Stockton School,” were disposed of around 1996. At the Turner Job Corps Center, we
       found two buildings that were no longer in use but were still being depreciated in
       CATARS and DOLAR$.

       We obtained a list of Job Corps buildings, demolished between October 1, 2002 and
       March 31, 2003, and found that 13 of the 14 buildings with a cost of $2.7 million and a net book
       value of over $866,000 were still reflected as depreciable assets in CATARS.

       These findings are contrary to requirements outlined in the U.S. DOL CATARS User Guide,
       Section 2.5 Removal from Service, which states:

           Property that is removed from service because it is damaged, obsolete, or identified
           as excess will not be depreciated and will be designated as removed from service.

       We concluded that CATARS was not consistently updated and did not reflect an accurate record
       of depreciable real property. This was attributed to inadequate procedures covering the exchange
       of information between OFAS and DBFS, and to the fact that annual physical inventories were
       not conducted which would have identified unrecorded property additions and deletions.

       As a result, depreciable real property recorded in CATARS and DOLAR$ was understated by
       approximately $24 million. In addition, this net understatement of depreciable real property
       resulted in an understatement of the depreciation expense associated with these assets.

       OFAS officials generally agreed with these findings, and indicated that appropriate action will be
       taken to adjust CATARS by the end of the fiscal year. OFAS officials also indicated that
       procedures will be implemented to ensure data on additions and dispositions are obtained from
       the DBFS’ contractor on a monthly basis so the assets can be entered or removed from CATARS
       in a timely manner. Concerning contracts in CIP, OFAS officials stated they will take immediate
       corrective action to move completed assets to the building accounts. They will conduct a
       monthly review of contracts in CIP and follow up with DBFS to ensure completed assets are
       capitalized. OFAS officials also stated they will modify the procedures for contracts in CIP that
       are pending legal claims.

       Asset Descriptions Were Not Sufficient to Verify Existence

       Our audit found that descriptions of buildings, leasehold improvements, and capital
       improvements recorded in CATARS were not consistently sufficient to identify the specific asset.
       During our visits to the 12 Job Corps centers, we used a non-statistical sampling approach to test
       the existence of capitalized Job Corps real property in CATARS as of May 31, 2003. This
       included a random selection at 10 centers and a judgmental selection at 2 centers. The sample
       size of 122 was judgmentally determined but sufficient to allow us to make conclusions on
       capitalized real property at the Job Corps centers. We were not able to verify the existence of 16
       items (13 percent) because the description recorded in CATARS was insufficient. For example,


Report No. 22-04-002-13-001                                                                           7
                                                      CFO FINDINGS AND RECOMMENDATIONS


       there were 12 real property items listed on CATARS for the Los Angeles Job Corps Center, of
       which four were described simply as “B” or “BB” and one was described as “San Jose.” Neither
       the auditors, nor the Los Angeles Job Corps Center officials, were able to determine what these
       items were.

       Other examples of vague CATARS property descriptions include: the name of the Job Corps
       center to describe multiple items at the Center, and architecture and engineering contract numbers
       that do not identify specific real property assets.

       The DOL Manual Series (DLMS) 2 Administration, Chapter 100 – Property Management,
       paragraph 114, Core Data Elements states in part:

           The following is a list of required common data elements and definitions to be used
           by the Departmental Property Accountability Program . . . (g) Description Contains
           identifying information.

       We concluded that the asset descriptions were not sufficient because OFAS and DBFS do not
       have effective procedures for obtaining property descriptions, or for verifying the accuracy and
       sufficiency of property information entered into CATARS. As a result, certain property recorded
       in CATARS cannot be identified, tracked or accounted for in the inventory process. This situation
       increases the risk that Job Corps’ property may be subject to loss or misuse, and that property
       may be inappropriately valued or classified in the Department’s general ledger and financial
       statements.

       OFAS officials told OIG that they recognized this problem and began work this year to improve
       the vague asset descriptions. Our comparison of the CATARS reports generated May 14 and
       June 12, 2003, indicated that progress is being made to correct this problem. OFAS officials
       stated that 500 real property items remained to be reviewed, and that the process would be
       completed within the next fiscal year (September 30, 2004).

       Land Reported in the General Ledger Does Not Agree With What Was Recorded in
       CATARS

       Our audit found that a significant portion of Job Corps land owned by the Department was not
       recorded in CATARS. As of July 31, 2003, approximately $63.8 million was recorded in general
       ledger account number 1710 (Land), however, land recorded in CATARS totaled only $6.9
       million. Further investigation of these differences indicated that two additional parcels of land
       valued at approximately $13 million were recorded in DOLAR$ and CATARS as buildings rather
       than land. As a result, the cost basis of Job Corps land reported in CATARS was understated by
       approximately $70 million. In addition, the financial statements were misstated by $13 million
       for the land misclassified as buildings, and by the amount of accumulated depreciation
       erroneously recorded for the land ($297,630 as of 7/31/03). In addition, land costs were not
       allocated to specific structures as required in SFFAS No. 6.

       These findings are contrary to requirements outlined in the U.S. DOL CATARS User Guide,
       Sections 2.7 and 2.7.1, which state respectively,

           Performing a reconciliation means making adjustments so that amounts in two
           different places agree. For capitalized assets, two kinds of reconciliations must be
           performed for each internal accounting code… .



Report No. 22-04-002-13-001                                                                          8
                                                     CFO FINDINGS AND RECOMMENDATIONS


           On a monthly basis, reconciliations should be performed between CATARS and
           DOLAR$. These reconciliations should first focus on whether the ending balances
           for property and accumulated depreciation agree between the CATARS and
           DOLAR$ systems.

       OFAS officials could not provide an explanation as to why land was not accurately recorded in
       CATARS, however, it was evident that sufficient procedures were not in place to reconcile
       CATARS to the corresponding balances recorded in DOLAR$. OFAS officials indicated that
       current and future land acquisitions that meet the capitalization threshold would be entered into
       CATARS on a timely basis. Management subsequently obtained information from the Job
       Corps’ A&E contractor on the land and recorded approximately $57 million in adjustments to
       CATARS as of year-end. The OIG was informed that the two properties currently recorded in the
       building account would be adjusted in CATARS and DOLAR$ early in the next fiscal year.

       Recommendations

       We recommend the Chief Financial Officer and the Assistant Secretary for Employment
       and Training ensure that:

       1. an annual physical inventory of all Job Corps real property is performed and the
          inventory results reconciled to CATARS and DOLAR$;

       2. additions and dispositions are recorded timely in CATARS by developing and
          implementing quarterly procedures to:

           a) transfer CIP balances recorded in CATARS to the appropriate depreciable asset
              account, where the DBFS records of contracts/structures indicate that Certificates
              of Substantial Completion have been issued;

           b) reconcile DBFS records for dispositions to the A&E contractor records and to
              entries in CATARS; and

           c) reconcile DBFS records of additions and deletions to OFAS records of additions and
              deletions recorded in CATARS;

       3. procedures are implemented to ensure that sufficient descriptive details of all
          capitalized property items are obtained and corrected in CATARS for existing
          property, and are added to CATARS for future acquisitions;

       4. total land costs are recorded in CATARS and allocated to the specific Job Corps center;
          and

       5. procedures are implemented to ensure that property recorded in CATARS is reconciled
          monthly to property recorded in DOLAR$, and all adjustments identified in the
          reconciliation process are recorded on a timely basis.




Report No. 22-04-002-13-001                                                                         9
                                                       CFO FINDINGS AND RECOMMENDATIONS


       Management’s Response

       ETA RESPONSE TO #1

       “ETA is in the process of conducting an annual inventory. The target date for completion is
       December 31, 2003. Every year thereafter an annual inventory will be completed on or before
       December 31.

       Financial constraints will preclude on site physical inspection of each building at the time of
       inventory verification. ETA will oversee the execution of a physical inventory by Regional Job
       Corps staff, with verification noted on the CATARS Physical Inventory Report that there has
       been a physical observation within the past year.”

       Auditors’ Conclusion

       We obtained certain clarifications from ETA regarding its response to this recommendation, and
       were informed that the physical inventory planned by management involves certification from
       Job Corps contractor staff as to the physical existence of property items located at their respective
       Job Corps center. The inventory process does not call for ETA staff to perform onsite physical
       inspections of capitalized property.

       We do not concur that this process will satisfy the requirements that all agencies conduct annual
       physical inventories of their property and equipment. To ensure adequate segregation of duties,
       individuals who do not maintain physical custody of the assets should conduct the physical
       inventory. While it may be appropriate to utilize Job Corps center staff to assist in the inventory,
       ETA should have some level of involvement in the physical inspection process.

       The Office of Job Corps currently requires its regional offices to conduct biannual onsite reviews
       of each Job Corps center, as well as periodic (two to three times per year) monitoring reviews.
       These reviews often include verification of the Electronic Property Management System (EPMS)
       property located at the center. We conclude that these onsite reviews provide ETA with a
       potential means by which to physically inspect capitalized property located at the respective Job
       Corps center with very minimal increase in cost.

       Furthermore, management’s response does not address the second part of the recommendation
       pertaining to reconciliation of property identified in physical inventories to that recorded in
       CATARS and DOLAR$. This recommendation is unresolved pending the development of an
       appropriate plan of corrective action.

       Management’s Response

       ETA RESPONSE TO #2

       “In general, ETA will follow the guidance contained in the OCFO Capitalized Asset Tracking
       and Reporting System Users Guide, (revised December 2002) for handling capitalized real
       property. In the case of JC real property, OFAS and JC, DBFS have begun to review its existing
       processes. To the extent appropriate, these processes will be restructured to achieve the necessary
       communications to strengthen our property management systems.

       We have obtained from JC, DBFS the listing of the demolished items identified by the auditors as
       still reflected in CATARS. ETA adjusted CATARS for these items by fiscal year end.


Report No. 22-04-002-13-001                                                                             10
                                                     CFO FINDINGS AND RECOMMENDATIONS


       Beginning in fiscal year 2004, McKissack and McKissack will provide ETA, OFAS addition and
       disposal data monthly, to ensure real property assets are entered and removed in CATARS
       without delay.”

       Auditors’ Conclusion

       We concur with ETA’s plan to review and strengthen existing processes. This recommendation
       is unresolved pending the outcome of management’s review and an assessment of the resulting
       plans for corrective action.

       Management’s Response

       ETA RESPONSE TO #3

       “Recognizing the concern property descriptions presented, in FY 2003, OFAS, Job Corps,
       Division of Budget and Facilities Support (JC, DBFS) staff, and the JC contractor for real
       property, McKissack & McKissack, developed and implemented a solution to address real
       property description.

       The solution: Assign to each item of real property a uniform building code unique to each Job
       Corps center. The serial number field in CATARS captures a ten-digit serial number (building
       code) unique to the respective Job Corps center. The last five digits of this building code
       identifier classify the real property items.

       The solution required modification of DOL’s Capitalized Asset Tracking and Reporting System
       (CATARS). ETA sought and obtained approval from the Office of the Chief Financial Officer
       (OCFO) to modify CATARS.

       ETA agrees, as outlined in the CATARS Users Guide (draft dated December 2002), that
       CATARS assists management’s stewardship, accountability, and control duties, tracking items by
       location and Accountable official. It also enables compliance with Federal GAAP, and contains
       approximately 6,000 ETA items.

       Implementation of the solution commenced May 2003.

       With just a little over 500 real property items remaining, ETA hopes to have all of the
       approximate 6,000 items identified by fiscal year end. An accomplishment noted in your
       statement of facts.

       Of the five real property items at the Los Angles Center that the auditors could not locate, four
       represented architectural and engineering (A&E) contracts. A&E contracts represent costs
       associated for services other than construction. For example, designs, plans, specifications, and
       surveys. A&E items typically are not assigned building code numbers. The last item was coded
       improperly to the Los Angles center, which will be corrected by September 30, 2003.

       We recommend that at succeeding entrance conferences on JC real property, ETA OFAS and JC,
       DBFS staff participate in providing a detailed briefing on the data in our systems. The purpose
       will be to clarify questions or concerns about the data the auditors will be using in their sample
       review, and explain those entries that represent A&E services associated with the construction of
       a building, not the building itself.”



Report No. 22-04-002-13-001                                                                          11
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Auditors’ Conclusion

       While we recognize that management has made efforts to resolve this finding, we do not concur
       that the building codes described by management will suffice as an adequate description of
       capitalized property. The objective of this recommendation is to ensure that sufficient
       information, i.e., property descriptions, are captured in CATARS so that reports can be generated
       and used for physical inventory purposes. Currently, some items recorded in CATARS have
       adequate descriptions that are conducive to physical identification of the property, while many do
       not. Our recommendation was that ETA ensure that all capitalized property is adequately and
       uniquely described in CATARS.

       The codes described by management will not provide a description of the property and would
       require an additional list that defines what the code represents. In addition, we were informed
       that there will not be a unique code for each property item, rather, there will be some shared
       codes. This precludes the use of the code to identify and inspect a specific property item.

       As to A&E costs, these are valid design costs incurred for specific buildings or improvement
       projects and should be associated with and capitalized as part of the total cost of each specific
       building or improvement. (A&E costs should also be depreciated over the estimated useful life of
       the property.) A&E costs do not need to be recorded as a separate property item in CATARS just
       because the costs were paid to a different contractor, however, we do not take exception to ETA
       setting up separate items for A&E costs, as long as the description is clear, the date the item was
       placed in service is correct, and the useful life mirrors that of the property with which the A&E
       costs are associated. This recommendation is unresolved pending submission of a corrective
       action plan that will resolve the issues raised in this recommendation.

       Management’s Response

       ETA RESPONSE TO #4 & #5

       “Recognizing the inherent value of the site survey data, ETA agrees that it must resolve issues
       between its records in CATARS and McKissack & McKissack site survey to capture all items.
       OFAS efforts to resolve these differences continue. No less than quarterly, reconciliation
       between CATARS and McKissack & McKissack data will provide the assurance that all real
       property assets recorded in McKissack and McKissack’s database, are captured in CATARS.

       Each month OFAS reviews the automated reconciliation report provided by CATARS. This
       review is performed to highlight adjustments that may be needed to ensure the integrity of the
       financial data in CATARS and DOLAR$. ETA, OFAS will use the quarterly reconciliation
       performed between CATARS and McKissack and McKissack’s data to support the reconciliation
       between CATARS and DOLAR$. These periodic reconciliation’s between McKissack &
       McKissack data and CATARS may increase should the need dictate.

       Further ETA will explore the use of the reconciliation format contained in the CATARS Users
       Guide (draft dated December 2002) as yet another means to make certain differences between
       CATARS and DOLAR$ are identified, and adjustments made, accordingly.

       ETA will make certain that current and future land acquisitions, which meet the threshold, are
       entered into CATARS.




Report No. 22-04-002-13-001                                                                              12
                                                     CFO FINDINGS AND RECOMMENDATIONS


       In many cases, however, real property is acquired without differentiation between building and
       land. Furthermore, there are also instances where land is acquired from a state or local
       government for a nominal fee. To address these aspects of land acquisition, ETA has
       implemented a practice whereby, McKissack & McKissack will capture and report land
       separately on future real property acquisitions.

       For some existing real property land not currently captured in CATARS, ETA has obtained
       information, from McKissack & McKissack that will support efforts to do so. ETA will make
       every effort to adjust CATARS for this real property land by fiscal year end.”

       Auditors’ Conclusion

       We concur with ETA’s corrective action plan for recording and allocating land in CATARS.
       Recommendation 4 is resolved and open. Closure is dependent upon the accuracy of land
       balances as recorded in the FY 2004 financial statements and subsidiary records, and on
       implementation of the planned procedures to ensure ongoing accuracy of DOL’s real property
       balances.

       However, management’s response is unclear as to the revised procedures that have been or will
       be implemented to reconcile CATARS to DOLAR$ and to timely record any adjustments
       identified in the reconciliation process. Recommendation 5 is unresolved pending the
       sufficiency of reconciliations performed in FY 2004 and the relevant procedures implemented in
       response to this recommendation.


       Status of Prior Year Findings and Recommendations

       Accountable Property

       In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG Report No.
       22-02-004-13-001), the OIG reported that the Department does not have adequate accountable
       property systems in place. Federal law requires the Department to maintain effective control
       over, and accountability for, assets for which the agency is responsible, and to safeguard these
       assets against waste, loss, unauthorized use and misappropriation. These assets include both
       assets capitalized for financial statement purposes and other “accountable property.” The OIG
       noted that several agencies did not have adequate written procedures and systems developed for
       identifying and tracking accountable property, and made the following recommendations:

       •   We recommend that the Chief Financial Officer ensure that the Assistant Secretary for
           Administration and Management establish written Department-wide procedures, including
           the Joint Financial Management Improvement Program’s ( JFMIP) property management
           system requirements, for identifying and tracking all accountable property.

       •   We recommend that the Chief Financial Officer ensure that the Assistant Secretaries for
           Administration and Management, Employment and Training and Employment Standards
           identify and track accountable property to be incorporated into a property management
           system.

       As of FY 2003, two agencies within the Department have not implemented inventory systems to
       track accountable property. The status of these two agencies follows:



Report No. 22-04-002-13-001                                                                          13
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Office of the Assistant Secretary for Administration and Management (OASAM)

       In response to the OIG’s recommendations, OASAM conducted a review of current DOL
       property management operations during FY 2003. This review included assessing the current
       property management and tracking systems at the National and Regional Office levels,
       documenting any unmet system core functionality and requirements, describing a target property
       environment, verifying baseline inventory information, developing a new property management
       database and documenting responsibilities. Based on this review, the agency purchased Oracle
       Assets, a commercial off-the-shelf software package. The rollout is planned for
       November 22, 2004. In conjunction with implementation of Oracle Assets, OASAM will issue a
       revised DLMS, Chapter 100, Property Management Policy and Procedures on
       December 22, 2004. Based on these actions both recommendations are resolved and open
       pending effective implementation of the new system and corresponding tracking procedures.

       Employment Standards Administration (ESA)

       ESA did not have an adequate system in place for tracking accountable property in FY 2002. In
       response to our memorandum dated May 20, 2003, requesting an update on the status of prior
       year audit findings, ESA stated that they would continue to follow its current procedures until the
       Department’s accountable property system is developed and implemented. No corrective actions
       were taken during the fiscal year.

       As indicated in the OIG’s FY 2002 audit report, the fact that OASAM is working on a
       Department-wide system does not preclude ESA from developing an interim system for tracking
       accountable property. Therefore, the second recommendation remains unresolved with respect
       to ESA pending receipt and review of an adequate corrective action plan.

       Management’s Response (OASAM)

       [No further comment on either recommendation.]

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.

       Management’s Response (ESA)

       “OIG is correct in its assessment that ESA followed its current accountable property procedures
       and did not develop an interim system for tracking accountable property during FY 2003. ESA
       anticipated that the Department-wide internet-based property management system would be
       developed and implemented prior to the end of FY 2003, but it was not. ESA has been an active
       participant in the DOL Property Management Workgroup since November 2002, provided input
       into the selection of the COTS (commercial off the shelf) inventory management software
       package, and is currently providing input to the contractors customizing the COTS product to
       ensure that it meets ESA’s needs. ESA understands that the timeframe for completion of the
       OASAM/VETS pilot project is now September 2004. ESA has already begun the data gathering
       process and will make every effort to implement the system immediately following the pilot such
       that it will be able to identify and track accountable property incorporated into a property
       management system no later than the end of December 2004.”




Report No. 22-04-002-13-001                                                                           14
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Auditors’ Conclusion

       This recommendation remains unresolved pending implementation of the COTS property system
       referred to by management, or an alternative method for tracking accountable property.


       Capitalized Asset Property Management

       In the FY 1999 Management Advisory Comments (OIG Report No. 12-00-006-13-001), the OIG
       reported that management’s capitalized asset tracking and reporting procedures are inadequate to
       ensure that disposals of capitalized assets are reported in a timely and accurate manner, and that
       assets are adequately safeguarded against loss or theft. The report included the following
       recommendation:

       We recommend the Chief Financial Officer ensure that:

       •   Accountable Property Officers (APOs) and Capitalized Asset Management Officers
           (CAMOs) receive adequate training in the disposal of capitalized assets.

       During FY 2003, the Department instructed agencies to perform their annual physical inventories
       as of June 30th. The OCFO produced CATARS Physical Inventory Reports for all agencies that
       were distributed by the Office of Accounting and Payments Services (OAPS) to all CAMOs.
       The OCFO held meetings regarding the annual physical inventory, reconciliation process, and
       asset disposal; however, the agency did not provide any additional training regarding asset
       disposal during FY 2003. The OCFO indicated that they would schedule training for
       January 2004. For these reasons, this recommendation remains unresolved.

       Management’s Response

       “The OCFO will prepare a quarterly memorandum for all APOs and CAMOs. This memo will
       provide procedures to ensure that disposals of capitalized assets are reported in a timely and
       accurate manner, and that assets are adequately safeguarded against loss or theft. To be completed
       by March 31, 2004.

       OAPS will prepare a training document to ensure that disposals of capitalized assets are reported
       in a timely and accurate manner, and that assets are adequately safeguarded against loss or theft
       address. The training document will be completed by 3/31/2004. APOs and CAMOs training to
       be completed by 6/30/2004.”

       Auditors’ Conclusion

       We concur with management’s planned corrective actions. This recommendation is resolved
       and open pending implementation of these actions.


       In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG Report No.
       22-02-004-13-001), the OIG made the following additional recommendations pertaining to
       capitalized property:

       We recommend that the Chief Financial Officer and the Commissioner for the Bureau of
       Labor Statistics and the Assistant Secretary for Employment and Training ensure that:


Report No. 22-04-002-13-001                                                                           15
                                                      CFO FINDINGS AND RECOMMENDATIONS



       •   procedures specified in the DLMS are followed for documenting the disposal of an asset at
           the time it is placed out of service, transferred, donated, etc., not as a means for reconciling
           the physical inventory; and

       •   Accountable Property Officers and Property Management Officers follow procedures
           specified in the DLMS for determining liability for lost/missing, stolen, or damaged
           property.

       The Department is required by law to establish internal accounting and administrative controls to
       reasonably ensure that all assets are safeguarded against waste, loss, unauthorized use, and
       misappropriation (31 U.S.C. 3512). When an asset is disposed, a DL-1-55C disposal form is
       required to be completed by the APO and submitted to the CAMO for entry into CATARS. The
       disposal form should be completed at the time of disposal and indicate the date and method of
       disposal. The disposal method is indicated using one of several predefined disposal codes (e.g.,
       trade-in, salvaged/scrapped, etc.).

       A physical inventory should be taken on an annual basis to determine that all of the items in
       CATARS exist and are in use. A reconciliation should be performed to identify potential
       differences between the physical inventory and CATARS, and any differences should be
       researched to determine if property is missing or has been misplaced. For items that are not
       located and for which disposal forms have not been completed, the DLMS specifies procedures to
       follow to determine the individual responsible for the missing item(s) and what financial liability
       exists. Individuals may be held financially liable if their negligence, carelessness, or dereliction
       of duty is found to have caused the loss, damage, or destruction of property.

       At the agency level, we noted the following:

       Bureau of Labor Statistics (BLS)

       While BLS took some corrective action in FY 2003, one recommendation was not fully resolved.
       BLS continued to identify and record missing and disposed items in conjunction with the annual
       physical inventory, and disposals were not recorded timely. Of 72 assets disposed in FY 2003, 58
       were recorded as disposed in conjunction with the year-end physical inventory. These 58 items
       had an acquisition cost of $2.1 million and a book value of $1.2 million. Therefore, with respect
       to BLS, the first recommendation remains resolved and open pending implementation of further
       corrective actions that ensure that property dispositions are recorded timely.

       ETA

       ETA is still not accounting for and documenting asset disposals on a timely basis. ETA stated it
       only completes disposal forms when physical inventories are taken. ETA performed their annual
       physical inventory as of September 30. Accordingly, the first recommendation remains
       unresolved with respect to ETA pending receipt and review of a corrective action plan with
       timeframes for completion.

       As of October 7, 2003, ETA was unable to provide us with any DL-1-55C disposal forms that
       resulted from the year-end physical inventory. We are therefore unable to determine if ETA is
       properly researching the reasons for disposal. As a result, the second recommendation, as
       pertains to ETA, remains unresolved.



Report No. 22-04-002-13-001                                                                            16
                                                     CFO FINDINGS AND RECOMMENDATIONS


       OCFO (Working Capital Fund (WCF))

       In response to the OIG’s recommendations, the agency stated that a process would be established
       to ensure DL-1-55C forms would be issued throughout the year as assets are removed from
       service and disposed. During FY 2003, the OCFO only disposed of two items with a net book
       value of $810. We do not believe that these transactions provide us with enough information to
       make a determination if management’s corrective action plan is being effectively implemented.
       Therefore, both recommendations remain resolved and open for OCFO (WCF).

       Management’s Response (BLS)

       “BLS property staff will conduct periodic inventory reviews of its capitalized assets.
       Accountable Property Officers (APO) will prepare and forward to the Capitalized Asset
       Management Officer (CAMO) DL1-55 forms when capitalized asset are disposed throughout the
       year. The CAMO will work closely with the property staff and APO's to ensure disposals are
       recorded in CATARS in a timely manner. BLS will provide annual written notifications to APOs
       on their property management responsibilities, including procedures to follow concerning
       lost/missing, stolen, or damaged property. BLS will continue to work with APOs to ensure that
       these procedures are followed.”

       Auditors’ Conclusion

       We concur with the actions described by management. The first recommendation remains
       resolved and open pending implementation of the corrective actions, and evidence that FY 2004
       asset disposals were processed timely in accordance with DLMS requirements.

       Management’s Response (ETA)

       “Procedures were issued to ETA Regional Administrator’s and Accountable Property Officers
       (APO) on June 4, 2003. The APO’s are at the senior executive or executive level. To ensure
       compliance with procedures issued, OFAS, as ETA’s Property Management Officer (PMO), will
       implement a quarterly review (physical inventory) by the APO’s, or their respective designate to
       ensure that the accountable personal property identified for disposition is done so pursuant with
       these procedures. ETA’s Office of Financial and Administrative Management Administrator will
       be notified of APO’s that do not respond.

       OFAS did perform the annual physical inventory for Fiscal Year 2003. Electronic
       notification was sent to the (APO) about the requirement to furnish the DL-1-55C Disposal
       Forms for changes to their accountable property inventory. ETA will continue to follow up
       with the APO’s or their designees to obtain the disposal forms from September 30.

       Lastly, the Department of Labor has embarked upon an enterprise wide E-Property
       Management System solution. This solution may alter the current procedures for asset
       disposal, and determining liability for lost missing, stolen, or damaged property. In
       summary, ETA recommends that this finding be closed.”

       Auditors’ Conclusion

       We concur with the planned actions described by management and consider both
       recommendations resolved and open. Closure is dependent upon evidence that FY 2004 asset



Report No. 22-04-002-13-001                                                                         17
                                                     CFO FINDINGS AND RECOMMENDATIONS


       disposals were appropriately processed and documented at the time the asset was taken out of
       service, and that ETA consistently adhered to other DLMS procedures for asset disposals.

       Management’s Response (OCFO)

       “In response to the CFO Findings and Recommendations item relating to the processing and
       recording of the DL-1-55C forms when assets are removed from service, the Division of Working
       Capital Fund Financing (DWCFF) will reconcile on a monthly basis the CATARS to the
       DOLAR$ for WCF assets to ensure the proper recording and reporting of capital assets. In
       addition, regular contacts will be initiated with APOs and CAMOs to reiterate the regulatory
       requirements to account for capital assets. Our efforts will place an emphasis on assets removed
       from service, as well as the subsequent accounting transactions.”

       Auditors’ Conclusion

       We concur with the actions described by management. Both recommendations remain resolved
       and open pending implementation of the corrective actions, and evidence that FY 2004 asset
       disposals were processed timely in accordance with DLMS requirements.



2.     Accounting for Grants
       Status of Prior Year Findings and Recommendations

       Grant Accounting Errors

       In the FY 1999 audit (OIG Report No. 12-00-003-13-001), the OIG identified significant errors in
       the recording of ETA's grants. The report included the following recommendation:

       •   We recommend that the Chief Financial Officer and the Assistant Secretary for
           Employment and Training ensure that procedures are established to ensure that errors
           made in recording grant information are identified and corrected on a timely basis. At a
           minimum, this should include review procedures for data input and utilization of exception
           reports which identify transactions with an unusual nature (such as negative cost entries).

       ETA believes that the data verification and edit checks developed for the Enterprise Information
       Management System (EIMS) will alleviate most of these issues. Efforts are currently under way
       to complete EIMS, inclusive of the interface to DOLAR$, and approval has been granted by the
       OCFO to begin parallel testing. The latest estimate for completion of the DOLAR$ interface is
       the first quarter of FY 2004.

       While we do not believe that EIMS in and of itself will alleviate all potential accounting errors,
       we concur that completion of the EIMS cost module will reduce the occurrence of certain types of
       errors. Currently, the data captured in EIMS must be manipulated before it can be entered into
       DOLAR$, a process which increases the risk of error and delays the posting of grant costs. These
       risks will be significantly reduced upon completion of the DOLAR$ interface.

       Other actions taken by management in FY 2003 include the issuance of Regional Office
       accounting procedures as well as Employment and Training Order (ETO) No. 1-03, Improving



Report No. 22-04-002-13-001                                                                           18
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Administration of Grants within the Employment and Training Administration. ETO No. 1-03
       clarifies the roles and responsibilities of ETA staff in grants administration and monitoring.
       Despite the efforts made by ETA, our FY 2003 audit continued to identify errors in ETA’s grants
       and contracts. Errors were noted for both regional office grants, which are not recorded through
       the EIMS system, and for national office grants. We have summarized the results of our testing
       as follows:

       -   We selected a random statistical sample of 105 ETA grants and contracts, including 78
           National office and 27 regional office grants and contracts. At the regional offices we noted
           errors in various Job Corps contracts selected for testing. Specifically, we noted instances
           where the grant obligations, costs and/or payments recorded in DOLAR$ did not agree to
           supporting documentation contained in the contract files. While the net unsupported dollar
           amount was not considered to be material, we noted errors in six out of 27 regional
           documents selected for testing, an error rate of 22 percent. In addition, 12 of the 27
           documents reflected accounts payable balances, of which two were found to be old balances
           that had been recorded in error and never cleared from the system.

       -   We noted errors in seven out of 78 (nine percent) national office grants and contracts selected
           for testing, the largest of which was related to a contract issued by the Office of Job Corps for
           operation of the student payment system. Cost information received from the contractor was
           not consistently recorded in DOLAR$ and the costs associated with this contract were
           understated by over $8 million as of March 2003, and $17 million as of July 2003.

       -   We noted that grant activity recorded in EIMS did not reconcile to corresponding activity
           recorded in DOLAR$. A comparison of costs recorded in EIMS for the WIA program versus
           those recorded in DOLAR$ identified that DOLAR$ was understated by approximately $96
           million. ETA was unaware of these differences and could not provide an explanation. We
           concluded that this situation was caused by the fact that EIMS activity was not routinely
           reconciled with DOLAR$, a process that would identify any differences between the two
           systems. While not as extensive, we found similar differences totaling $1.2 million for a
           sample of Native American grants.

       -   In FY 2002, our audit identified over $20 million in negative cost entries posted in error to
           the FY 2000 Migrant grants (over 40 documents). These entries reversed costs recorded in
           prior periods and created invalid advance balances in DOLAR$. These errors were not
           corrected in FY 2003.

       The audit results indicate that improved procedures are necessary relative to detecting and
       correcting grant errors at the National and regional offices. These procedures should include but
       not be limited to completion of the EIMS interface to DOLAR$ and routine reconciliation of
       EIMS data to the data recorded in DOLAR$. This recommendation remains unresolved.
       Resolution is dependent upon implementation of improved procedures for detecting and
       correcting potential grant errors at both the National and regional offices, and on a positive
       outcome for grant testing conducted during the FY 2004 audit.

       Management’s Response

       “ETA is reviewing its current processes in order to more expeditiously detect and correct grant
       errors in both the National and regional offices. This includes the reconciliation of costs between
       EIMS and DOLAR$. Currently, ETA is establishing parameters for various managerial reports
       and reconciliations that will aid ETA in controlling and resolving grant discrepancies in a more


Report No. 22-04-002-13-001                                                                             19
                                                     CFO FINDINGS AND RECOMMENDATIONS


       timely fashion. The DFSS and the EIMS work group have been addressing the need for quality
       control for all of the processes, which must be from beginning to end.

       The understatement of costs for the Job Corps contractor for student payments system, SPAMIS,
       costs differences were reduced from $11 million in June to $109,130.00, as of the DOLAR$
       report dated 9/30/03.

       EIMS discrepancies were reviewed prior to Fiscal Year 2003 year end closing and they were
       posted in the DOLAR$. These discrepancies arose because reports were not being certified
       timely by Federal Project Officers (FPOs) and a systemic problem related to the categories in
       WIA cost reporting.

       Discrepancies noted in the migrant program for Program Year 2000 were reviewed and $18.7
       million in cost differences were identified and subsequently uploaded to DOLAR$ prior to the
       ending of Fiscal Year 2003. Also, discrepancies in the Program Year 1999 migrant program are
       being reviewed and upon completion, needed corrections will be made.”

       Auditors’ Conclusion

       We concur with the steps taken by management to review and revise current processes, including
       the development of useful managerial reports and EIMS reconciliation procedures. However, this
       recommendation remains unresolved pending the outcome of management’s review and an
       assessment of the resulting plans for corrective action.


       Delinquent Grantee Reporting

       Over the past several years, OIG audits have identified delinquent reporting on the part of ETA’s
       grantees and contractors. The FY 1999 audit (OIG Report No. 12-00-003-13-001) included the
       following recommendation:

       •   We recommend that the Chief Financial Officer and the Assistant Secretary for
           Employment and Training establish procedures for monitoring grantee reporting. At a
           minimum, these procedures should provide for the timely identification of delinquent cost
           reports and appropriate follow up efforts with grantees.

       In recent years, ETA has made various efforts to obtain and record delinquent cost reports from
       its grantees. Notices were sent to the regional offices stressing the importance of obtaining
       delinquent cost reports, and features were added to the EIMS cost system to identify untimely
       reporting by grantees. In FY 2003, ETA issued delinquency notices to selected grantees, and
       issued internal grant administration procedures in ETO 1-03, Improving Administration of Grants
       within the Employment and Training Administration, which clarifies the roles and responsibilities
       of ETA staff in grants administration and monitoring. In addition, ETA issued written regional
       accounting procedures that include procedures for identifying and resolving delinquent grantee
       reporting.

       Regardless of the actions taken by ETA, significant reporting delinquencies were identified in the
       FY 2003 audit. The June 30, 2003, Detailed Grant Report reflected over 350 documents, with
       approximately $230 million in advances, where grantees had not reported any costs since the
       grant’s inception. These results are essentially the same as those noted in the FY 2002 audit. In



Report No. 22-04-002-13-001                                                                            20
                                                      CFO FINDINGS AND RECOMMENDATIONS


       addition, the June 30, 2003, Detailed Grant Report reflected over 380 documents with
       approximately $303 million of beginning advance balances (e.g., balances carried over from
       FY 2002), but no costs were recorded in FY 2003. In fact, the advance balances for these 380
       documents increased from $303 million at September 30, 2002, to approximately $366 million as
       of June 30, 2003. Our analysis of other large advance balances identified additional grantees who
       were one or two quarters delinquent in submitting cost reports.

       Based on our findings, it is apparent that additional follow-up and monitoring is necessary to
       ensure that grantees submit missing cost reports and that their cost reporting remains current. In
       response to our FY 2003 audit results, management contacted many grantees whose documents
       reflected zero recorded costs and obtained over $20 million in missing cost reports. We
       encourage management to continue with this process throughout FY 2004. This recommendation
       remains resolved and open. Closure is dependent on evidence of improved grantee reporting in
       FY 2004.

       Management’s Response

       “ETA will send electronic notification monthly of delinquent grantees’ costs reporting to Program
       and Administrative officials. If delinquent grantees fail to submit costs reports, OFAS will send
       two letters of “delinquency” notifications to the grantees’ with copies to the OGCM, requesting
       that the delinquent grantees be designated “high risk,” and that appropriate action be taken.

       Additionally, OFAS will pursue utilizing the Department of Health and Human Services’
       Payments Management System (DHHS_PMS) for monitoring the grantees’ Federal Cash on
       Hand, which is required by the OCFO’s DLMS 6, and the 29 CFR 95 regulations. DHHS-PMS
       provides 2-way electronic transfer of 272 data between PMS and recipient organizations.
       Utilizing this management tool will aid ETA in being pro-active in preparing its grantees for the
       impending transition to E-GRANTS and in its cash management of grants.

       Further, OFAS will recommend that when grantees/contractors are “vetted” for new/additional
       funding that an additional line/section be placed on the clearance form, which would allow OFAS
       to record/reflect whether or not the grantee/contractor is delinquent in cost reporting. If they are
       delinquent, the grantees/contractors should be required to fax their delinquent reports
       immediately before clearance is given for funding. Funding should be withheld until past due
       cost reports have been received.

       OFAS will further recommend that the FPOs be required to review grant/contract status of
       grantees/contractors to make sure that grantees are not delinquent in their reporting and obtain
       delinquent cost reports before any requests for modifications to grants/contracts are submitted to
       OGCM.

       ETA has developed two letters that notify the grantees of their “high risk” posture and the need
       for the submission of their financial status reports. Additionally, ETA is developing other tools
       and processes to improve the responsiveness of ETA’s grantees, such as, (1) the issuance of a
       monthly report identifying grantees with “zero” balances (2) the issuance of monthly reports to
       Program/OGCM officials listing grantees who are delinquent in their reporting and (3) ETA’s
       EIMS workgroup is establishing the parameters to be used in developing other tools to aid in this
       process.”




Report No. 22-04-002-13-001                                                                            21
                                                     CFO FINDINGS AND RECOMMENDATIONS


       Auditors’ Conclusion

       We concur with the actions described by management and conclude that this recommendation is
       resolved and open. Closure is dependent upon implementation of these actions, and evidence
       that these actions have improved grantee reporting practices and substantially reduced the number
       of delinquent cost reports in FY 2004.


       Accounting for Workforce Investment Act (WIA) Transfers

       In the FY 1999 audit (OIG Report No. 12-00-003-13-001), the OIG reported that ETA did not
       account for funds transferred within the Job Training Partnership Act (JTPA) program, even
       though funds were moved between grants and appropriation accounts. While the JTPA program
       has since been closed, a similar situation currently exists with the WIA program. Under WIA,
       grantees are allowed to transfer funds between the adult and dislocated worker programs. These
       transfers are captured in EIMS but are not recorded in DOLAR$. Rather, the funds are recorded
       in the general ledger and reported to Treasury as if they were expended for the original program
       component.

       The FY 1999 report included the following recommendation:

       We recommend that the Chief Financial Officer and the Assistant Secretary of Employment
       and Training ensure that controls are implemented over JTPA transfers or similar provisions
       of successor programs (such as the Workforce Investment Act), including:

       •   procedures to account for JTPA (WIA) transfers, which ensure that transfers between
           appropriation accounts are accounted for in accordance with OMB guidance and that all
           program costs are accurately recorded for each program.

       ETA referred the matter to OMB for resolution. We independently submitted all supporting
       documentation to OMB for review and as of October 2003 we had not received a response. This
       recommendation remains unresolved pending receipt and analysis of OMB’s opinion regarding
       this issue, and on implementation of appropriate corrective actions as determined to be necessary
       based on that analysis.

       Management’s Response

       [No further comment.]

       Auditors’ Conclusion

       Our audit conclusion remains unchanged. We encourage ETA to follow up with its request to
       OMB.




Report No. 22-04-002-13-001                                                                          22
                                                       CFO FINDINGS AND RECOMMENDATIONS


3.     Unemployment Trust Fund
       Status of Prior Year Findings and Recommendations

       Unemployment Insurance Benefit Overpayments

       In the FY 2001 audit (OIG Report No. 22-02-004-13-001), the OIG reported certain deficiencies
       in the internal controls over Unemployment Insurance benefit payments. The Unemployment
       Insurance (UI) overpayment data collected by the Benefit Accuracy Measurement (BAM) unit
       reflected little improvement in the UI overpayment rates over the past several years. In fact, the
       overpayment rate has remained relatively flat since 1989 at about 8.5 percent. The report also
       noted that the BAM data reflect significantly higher overpayments than those established and
       reported by the states’ Benefit Payment Control (BPC) system, $2.3 billion versus $669 million,
       respectively. According to management, a significant portion of the $2.3 billion in overpayments
       represents instances which are either non-recoverable or are not detectable given current
       operating procedures. The OIG made four recommendations, of which three were closed. The
       open recommendation follows:

       We recommend that the Chief Financial Officer and the Assistant Secretary for Employment
       and Training ensure that the Office of Workforce Security (OWS) management:

       •   Develop a written plan to utilize the data produced by the BAM unit as the impetus for
           improving internal controls over the benefit payment process. Specifically, the plan should
           address:

           -   procedures to analyze overpayment rates for purposes of identifying statistically valid
               improvement, or lack thereof, in overpayment rates at the national and state levels;

       In FY 2002, in response to this finding, management provided the OIG with a detailed corrective
       action plan and timeline, as well as descriptions of certain actions already put into place. The
       corrective action plan described planned changes to the methods in which BAM and BPC UI
       overpayments will be measured and compared, as well as proposed Government Performance and
       Results Act (GPRA) measures and goals.

       In FY 2003, management prepared detailed analyses of 2002 UI overpayment data and provided
       us with additional information as to the GPRA goal implemented to measure the states’ detection
       of UI benefit overpayments.

       While management has made efforts to improve detection of overpayments, the actual UI benefit
       payment rate for 2002 did not yet reflect the effects of such actions. The UI benefit overpayment
       rates for 2002 and 2001 were 9.1 percent and 8.2 percent, respectively. For these reasons, this
       recommendation remains resolved and open. We will reevaluate this recommendation in our FY
       2004 audit after management’s plan, inclusive of the GPRA goal, has been in effect over one full
       year. At that time, we will determine if the GPRA goal and other actions taken by management
       have resulted in a statistically valid reduction in the rate of UI overpayments.

       Management’s Response

       “ETA believes that the actions it has taken as outlined in its action plan/work plan will result in a
       significant reduction in the detectable, recoverable overpayment rate. However, we note that


Report No. 22-04-002-13-001                                                                             23
                                                       CFO FINDINGS AND RECOMMENDATIONS


        ETA’s initiatives to address overpayments must be implemented by states, and it may be more
        than a year before data reflecting the impact of those initiatives are available.

        For example, ETA provided funding in July 2003 for implementation or improvement of state
        systems to cross match UI payment data with state directories of new hires, the Social Security
        Administration, and other data bases, e.g., state departments of motor vehicles. Before there are
        measurable results of these efforts, the computer data matching programs must be written, tested,
        etc.; investigations initiated; and overpayments established. We expect the results of these efforts
        initially to be an improvement in the rate of overpayments detected; after these systems have been
        in place for sometime, we would expect them to have a deterrent effect, reducing the overall
        estimated overpayment rate. We expect to see improved detection results from use of new hire
        directories in 2004 data and perhaps some impact from the SSA crossmatch in 2004 although it is
        not likely to be implemented by states until the latter half of 2004.

        It is not possible for states to prevent many overpayments because they have no way to know at
        the time the payment is made that the individual is ineligible (for example, the individual has
        returned to work). For this reason ETA has focused its efforts and measures on quick detection of
        overpayments rather than setting an overpayment reduction goal.”

        Auditors’ Conclusion

        As indicated in our draft report, the data available for FY 2003 does not lead to a conclusion that
        management’s corrective actions implemented in response to the original audit finding have
        impacted the UI benefit overpayment rate or the rate of overpayment detection. We concur with
        management that their corrective actions may need additional time to significantly impact the
        overpayment and detection rates. This recommendation remains resolved and open pending an
        assessment of the FY 2004 UI overpayment data.


4.      Federal Employees Compensation Act (FECA)
        Current Year Finding and Recommendation

     a. Lack of Current Medical Evidence

        In order to determine continuing eligibility for compensation payments, the FECA procedure
        manual Chapter 2-812(6-7), requires ESA’s Office of Workers’ Compensation Programs
        (OWCP) Claims Examiners (CEs) to obtain and review medical evidence on a periodic basis
        depending on the status of the claimant as follows:

                 Status
                 Code      Description                                Frequency
                PR         Cases in which total temporary             Yearly
                           disability payments are being paid
                PW         Cases receiving payments for loss of       Every two years
                           wage-earning capacity
                PN         Cases in which no wage earning             Every three years
                           capacity exists




Report No. 22-04-002-13-001                                                                             24
                                                      CFO FINDINGS AND RECOMMENDATIONS


       FECA Procedure Manual 2-812(8) contains the procedures for obtaining and reviewing medical
       reports. If a medical report is not received within the specified time (30-60 days is considered
       reasonable), or the report does not contain the requested information, the CE should direct the
       claimant to undergo examination by the attending physician or a second opinion specialist, as
       appropriate. The OWCP should make an appointment for the examination. The notification to the
       claimant should include the warning that under 5 U.S.C. 8123(d) benefits may be suspended for
       failure to report for the examination. Suspension may be invoked only in connection with a
       specific appointment.

       Where injury-related disability has ceased, the CE is to notify the claimant of the proposed
       termination of benefits. The OWCP has the burden of proof to justify the termination of benefits
       by positive and specific evidence that injury-related disability has ceased. The FECA procedures
       state that the inadequacy or absence of a report in support of continuing benefits is not sufficient
       to support termination, and benefits should not be suspended for that reason.

       During the FY 2003 audit, from a sample of five out of 12 District offices, we tested 146 case
       files where medical evidence was required to be obtained in the current year. A statistical sample
       of 96 cases and an additional judgmental sample of 50 cases were selected for testing. Of these
       146 cases, 27 cases (18 percent) did not have current medical evidence in the case file in
       accordance with program policy. In 25 of these 27 cases, it appeared the claimant did not seek
       medical treatment during the current fiscal year, as evidenced by the fact that no medical bills had
       been processed by the Bill Payment System (BPS).

       To determine if these cases related to a particular segment of the population only (e.g., older
       cases involving permanent disability), we further analyzed the 27 cases by reviewing information
       recorded in the Case Management File, the Automated Compensation Payment System, and the
       BPS. We found these cases included all three status code types and appeared to represent a cross-
       section of case files rather than a particular segment of the population. The age of the claimants
       ranged from 41 to 84 years old, and the dates of injury spanned from 1960 through the 1990s.
       The lack of current medical evidence appeared to be due to procedural failure by OWCP rather
       than the claimants being non-responsive.

       The lack of current medical evidence in the case files occurred because OWCP does not have
       effective controls to ensure CEs request and receive current medical evidence timely. The current
       process relies upon the ad-hoc tracking systems utilized by individual CEs in each of the District
       offices to ensure compliance.

       Based on these results, we concluded that the primary control ensuring that claimants submit
       medical evidence to support continuing eligibility for compensation and medical benefits is not
       effective. Because OWCP did not follow its procedures, it could not take steps to suspend or
       terminate benefits if the medical evidence did not support continuing eligibility. Without
       adequate procedures for obtaining and reviewing current medical evidence, the risk of improper
       payments increases.

       Recommendation

       We recommend that the Chief Financial Officer ensure that the Assistant Secretary for the
       Employment Standards Administration develops and implements effective controls (e.g.,
       automated procedures) that will ensure Claims Examiners obtain and review current
       medical evidence as required by FECA program policy.



Report No. 22-04-002-13-001                                                                            25
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Management’s Response

       “As noted by the OIG, this issue relates to procedures that OWCP has in place to ensure that
       current medical evidence is present in long term disability files. Of the errors identified by OIG,
       60% occurred in one of the five offices audited. The management of that particular office was
       notified of the OIG’s findings and training was mandated by OWCP. The program is
       implementing a new integrated computer system in January 2004. The system has an automated
       tracking mechanism to alert the claims staff when a medical evaluation is due. We believe that
       the directed training and new system will eliminate this finding from future audits.”

       Auditors’ Conclusion

       Although management indicated corrective action was initiated at one of the district offices, their
       response did not address the other district offices that were responsible for 40 percent of the
       errors. Additionally, we have not been provided any details on the new integrated computer
       system, and, accordingly, are unable to evaluate whether or not this system will effectively
       resolve this finding.

       Therefore, this recommendation is unresolved, pending receipt and review of a detailed
       corrective action plan, which includes information regarding the new integrated computer system
       and which addresses the remaining district offices.




Report No. 22-04-002-13-001                                                                            26
Management Advisory Comments
                                                      CFO FINDINGS AND RECOMMENDATIONS


1.     Job Corps Program
       Current Year Finding and Recommendation

       Job Corps Data Center Has Approximately $11 Million in Unclaimed Student Checks

       Each year, a significant number of Job Corps student payroll checks are returned to the Job Corps
       Data Center (JCDC) unpaid. A total of 109,251 unpaid checks were returned to the JCDC from
       December 1995 through November 2002. These checks amounted to $8,651,815. During the
       same period, an additional 30,722 unclaimed checks (in the amount of $2,314,083) were not
       returned to the JCDC but were never cashed by the students. In total, $10,965,899 is owed to Job
       Corps students for readjustment and/or transition allowances earned during the course of their
       participation in Job Corps. The Job Corps Policy and Requirement Handbook (PRH) requires
       that Centers and career transition services providers “assure efficient, effective, and coordinated
       delivery of career transition services to graduates and former enrollees including the distributing
       and safeguarding of student payments.”

       When Job Corps students leave the program, they are entitled to a transition allowance based on
       their achievements. If a student obtains a General Educational Development degree (GED), he or
       she is entitled to $250. Vocational Completers receive $750. Students who earn a GED and are
       Vocational Completers are entitled to $1,200. Non-Completers receive only final pay. Students
       entitled to a transition allowance receive a portion of these checks when they leave the Job Corps
       center , and, in certain cases, the remainder is provided by a Career Transition Service (CTS)
       provider.

       However, for various reasons many of these checks are not being claimed or, if claimed, not
       cashed by the students. Some of these students may not want any further contact with the Job
       Corps program. In other cases, the students may not have provided accurate contact information.

       The Office of Job Corps acknowledges that additional steps should be taken to address the issue
       of unclaimed checks and recently developed a plan for immediate action as well as a plan for
       long-term measures.

       Recommendation

       We recommend that the Chief Financial Officer ensure that the Office of Job Corps identify
       the causes for checks being returned and address these causes by strengthening current
       procedures to ensure that students receive their final checks, and that the number of
       unclaimed checks is reduced.

       Management’s Response

       “As of 2/29/04, the Unclaimed Pay has been reduced to $9.7 million. Job Corps has taken several
       actions to continue reducing this amount, which includes adding an application function which
       CTS providers can query students currently on their case load for outstanding check information,
       performing reviews of students with outstanding checks, and follow-up phone calls. Job Corps
       continues to address this issue by mailing notifications to students with outstanding checks and
       sending bulk case-notes to CTS providers for follow-up.”




Report No. 22-04-002-13-001                                                                           27
                                                       CFO FINDINGS AND RECOMMENDATIONS


        Auditors’ Conclusion

        This recommendation is unresolved. Job Corps’ February 2004 Statement of Position supports
        the reduction of Unclaimed Pay from nearly $11 Million to $9.7 Million. However, to resolve the
        recommendation, a corrective action plan with timeframes needs to be provided that includes the
        actions planned to identify the causes for the checks being returned and relates actions taken to
        the causes. We will follow up on the actions Job Corps has already taken to determine the effect
        on reducing the amount of returned checks during our FY 2004 audit.


2.      Accounting for Grants
        Status of Prior Year Finding and Recommendation

     a. ETA Grant Closeout.

        In the FY 1996 audit report (OIG Report No. 12-97-005-13-001), the OIG reported that ETA did
        not have an effective system to track grants and contracts in the closeout process or to identify the
        grants that should be closed, and the closeout process was very untimely. In FY 2000, the
        responsibility for closing ETA grants was moved to the Office of Grants and Contracts
        Management. Since that time the Closeout Unit has improved the grant closeout process and
        reduced the inventory of grants in closeout. As of the FY 2002 audit report, the recommendation
        was resolved and open, pending improvements in the length of time for processing grants and
        contracts through closeout.

        The FY 1996 audit report included the following recommendation:

        •   We recommend that the Chief Financial Officer and the Assistant Secretary for
            Employment and Training ensure that procedures are established to ensure that the
            regulatory time requirement for submitting all financial, performance, and other required
            documents within 90 days after the end of the grant is met by the grantee or contractor and
            that grants are closed out in a timely manner, i.e., 1 year or less.

        The Closeout Unit continues to initiate efforts to improve the closeout process. A grant closeout
        module is currently being developed by ETA’s Office of Technology, which will provide ETA
        with improved methods for initiating and managing the closeout process. This module is
        scheduled for completion in early FY 2004.

        This recommendation remains resolved and open pending the implementation of improved
        procedures for processing grant closeout on a timely basis, as evidenced by a reduction in the
        length of time for processing grants and contracts through the closeout process.

        Management’s Response

        “The Closeout Unit has implemented four new procedures to reduce the number of days to close
        grants/contracts. These procedures include:

                1) A follow-up phone call to the grantee/contractors to ensure they received our
                   closeout package.




Report No. 22-04-002-13-001                                                                              28
                                                      CFO FINDINGS AND RECOMMENDATIONS


               2) 30 days before the closeout package is due, we call again to remind the
                  grantee/contractor to submit the package.
               3) If the grantee/contractor does not return a closeout package as specified, we send a
                  “No Document” letter notifying them that closeout documents are due within the
                  timeframe indicated.
               4) If the grantee/contractor returns incomplete documents, needs to submit revised
                  documents, or owes ETA a refund, we send a “Notice” letter notifying them what
                  documents they need to submit within the timeframe indicated.

       The closeout unit has also established an informal e-mail communication system with the
       regional offices to improve the timeliness of closing regional grants & contracts. Our informal
       communication system will remain in affect until we can rely on the grant/contracting electronic
       systems to notify our unit.

       Contractors have six months after the end of their fiscal year to submit a final indirect cost
       proposal to their cognizant agency. Federal agencies may take six months to three years to
       approve these rates. This time lag is beyond ETA’s control, but significantly lengthens the time
       required to finally close a contract (ETA’s closeout policy does not require final rates for grants).
       Contracts awaiting final indirect cost rates should not be included in the calculation of how long it
       takes ETA to close an award.”

       Auditors’ Conclusion

       We concur with the actions taken by management and will evaluate the revised procedures during
       the FY 2004 audit. This recommendation remains resolved and open. Closure is dependent
       upon the results of our evaluation and evidence that the revised procedures have resulted in a
       timely closing process for ETA’s grants and contracts.


   b. Tracking Grant Closeout

       In the FY 2001 audit report (OIG Report No. 22-01-006-13-001), the OIG reported that DOL=s
       granting agencies need a means by which they can track, in DOLAR$, whether or not a grant has
       been closed. Currently, it is difficult for granting agencies to identify grants and contracts that
       have not yet been submitted for closure. In addition, there are no controls to prevent transactions
       from being posted in DOLAR$ after the grant has been closed and received final certification,
       and grants can be archived from DOLAR$ without consideration of whether or not the grant has
       been closed. There are thousands of grant and contract documents recorded in DOLAR$, and the
       granting agencies need an efficient means of identifying open versus closed grants.

       The FY 2001 report included the following recommendation:

       •   We recommend that the Chief Financial Officer work with the granting agencies to
           develop a method, using DOLAR$, that will provide the agencies with the necessary
           information for closed versus open grants, would restrict access to closed grants, and
           would ensure that grants are not archived from DOLAR$ prior to grant closure.

       No actions have been taken by management regarding this recommendation; however, the OCFO
       has indicated that this recommendation will be considered in the functional requirements analysis
       for the new accounting system that will eventually replace DOLAR$. The new system is in the
       planning phase and will not be operational for several years. This recommendation remains


Report No. 22-04-002-13-001                                                                            29
                                                        CFO FINDINGS AND RECOMMENDATIONS


        unresolved until specific plans for corrective actions are developed which provide interim
        resolution prior to the replacement of DOLAR$.

        Management’s Response

        “Management has reviewed the recommendations and has determined that the modifications
        requested would not be cost effective given the fact that the system is scheduled for replacement
        starting in FY 2004. We will incorporate these recommendations into the functional requirements
        analysis for the new system.”

        Auditors’ Conclusion

        To the extent it is available, we will evaluate relative portions of the functional analysis referred
        to by management during the FY 2004 audit. However, this recommendation remains
        unresolved pending implementation of procedures for interim resolution.


3.      Unemployment Trust Fund
        Status of Prior Year Finding and Recommendation

     a. Understated Unemployment Benefit Payments

        In the FY 2000 audit report (OIG Report No. 22-01-006-13-001), the OIG reported certain
        deficiencies in the reconciliation process for unemployment benefits reported by the states and
        those reflected on Treasury statements. The OIG found that ETA’s reconciliation process does
        not cover state unemployment benefits, and the OCFO’s reconciliations identified significant
        misstatements in advances to states and state unemployment benefit expenses. Furthermore,
        states reported drawdowns net of the Federal income taxes paid on their behalf by Treasury and
        reported benefit payments net of Federal income taxes withheld from claimant payments on the
        state benefit account shown on ETA form 2112. The net benefit payments were recorded in the
        Unemployment Insurance Data Base (UIDB) and used to reduce gross state drawdowns recorded
        in DOLAR$.

        The OIG made four recommendations of which two have been closed. The recommendations
        still open follow:

        We recommend that the Chief Financial Officer and the Assistant Secretary for Employment
        and Training ensure that:

        •   Reconciliations using FMRS and Treasury data are performed timely and include
            comparisons of drawdowns for State benefits in addition to drawdowns for Federal
            benefits.

        •   ETA monitors the reconciliation process on a quarterly basis and provides the OCFO
            status reports on the results of the reconciliations.

        In FY 2003, ETA received OMB approval to revise the ETA form 2112 to capture all current
        benefit information. The new form will provide ETA with complete information that is necessary
        for an accurate reconciliation process. ETA is working with the states to reconcile their UI


Report No. 22-04-002-13-001                                                                               30
                                                      CFO FINDINGS AND RECOMMENDATIONS


       balances and record the correct balances on the new form 2112. However, as of FY 2003 not all
       states have completed the necessary reconciliations.

       These recommendations remain resolved and open. Closure is dependent upon further progress
       of the reconciliation and monitoring process and substantial correction of the ETA 2112s.

       Management’s Response

       “As far as the underreporting of benefits is concerned, ETA has sent states revised instructions
       and provided training on the latest edition of the 2112 resulting in the correction of the problem
       of underreporting benefits because of improper reporting of federal tax withholding amounts.”

       Auditors’ Conclusion

       We concur that recent revisions to the 2112 should improve the accuracy of reported UI data and
       simplify the reconciliation process. However, we noted in our FY 2003 audit that the states were
       not yet reporting data in a consistent manner and had not completed the necessary reconciliations.
       These recommendations remain resolved and open pending our review of the progress made in
       FY 2004.


   b. Unemployment Compensation Advisory Council

       In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
       Unemployment Compensation Advisory Council (UCAC) required by the Social Security Act has
       not been reestablished. Section 908 of the Social Security Act makes no provision for delaying
       the establishment of a new Advisory Council, and the issues for which the Council is responsible
       are significant to the UI program. The report included the following recommendation:

       •   We recommend that the Assistant Secretary for Employment and Training ensure that the
           Unemployment Compensation Advisory Council is reestablished as required by Section 908
           of the Social Security Act.

       As of FY 2003, a new UCAC has not been established, nor has a timeframe been provided as to
       when another council would be discussed or established. This recommendation remains
       unresolved pending establishment of a UCAC.

       Management’s Response

       “A legislative proposal developed by the Department and approved by OMB in 2003 to reform
       the Unemployment Insurance (UI) program included a section that would amend the current law
       requirement that an Advisory Council on Unemployment Compensation be convened every four
       years. The legislative proposal would authorize the Secretary of Labor to convene a Council
       periodically. The Employment and Training Administration anticipates pursuing this change to
       the Advisory Council statute in connection with comprehensive UI reform legislation.”

       Auditors’ Conclusion

       This recommendation is unresolved until such time that ETA complies with the requirement to
       establish a UCAC. The legislative changes referred to by management in their response do not
       appear to eliminate this requirement, rather, the requirement may change from “every four years”


Report No. 22-04-002-13-001                                                                            31
                                                       CFO FINDINGS AND RECOMMENDATIONS


       to “periodically.” Since this issue has been unresolved for at least 7 years, even if the legislation
       changes we would not conclude that ETA is in compliance.


4.     Procurement
       Status of Prior Year Findings and Recommendations

       Purchase Card Activity

       The Department of Labor’s purchase card program is centrally coordinated by OASAM but
       operated on a decentralized basis at the agency level throughout the various procurement, finance,
       and program offices. The internal controls over purchase card activity vary from agency to
       agency, and within each agency, the controls are only effective to the degree the individual
       cardholders, approving officials, Agency/Organization Program Coordinators (A/OPCs), and
       procurement and finance offices fulfill their respective duties.

       Controls over purchase card activity continue to be a significant governmentwide issue. The
       GAO and agency Inspectors General have issued reports detailing purchase card fraud, waste, and
       abuse at various Federal agencies. This issue has been the subject of numerous congressional
       hearings. In addition, OMB has issued memoranda in FY 2002 instructing agencies to review the
       adequacy of the internal controls, prepare remedial action plans, and take immediate
       administrative action against any employees found to have abused purchase cards.

       OIG audits conducted for FY 1999 through FY 2002 identified the following weaknesses
       regarding the Department’s purchase card activities:

           •   purchases made in excess of the $2,500 micro-purchase limit; and
           •   missing credit card statements and supporting documentation.

       The FY 1999 Management Advisory Comments (OIG Report No. 12-00-006-13-001), included
       the following recommendations:

       We recommend that the Chief Financial Officer and the Assistant Secretary for Administration
       and Management:

       •   Revise the credit card policies to clarify what documentation agencies must maintain to
           support credit card purchases.

       •   Establish procedures for all agencies to follow and identify the consequences of instances
           of missing cardholder statements or lack of adequate documentation.

       •   Ensure that cardholders, approving officials, and other financial management and
           procurement staff are trained in the Department’s credit card use procedures and in their
           respective responsibilities.

       Our FY 2003 audit revealed that corrective actions were developed and were in the process of
       being implemented. Full implementation is expected in FY 2004. As a result, these three
       recommendations are resolved and open, pending full implementation of the corrective actions,



Report No. 22-04-002-13-001                                                                              32
                                                      CFO FINDINGS AND RECOMMENDATIONS


       and on evidence that reflects the actions taken have substantially resolved the issues addressed in
       this finding.

       Management’s Response

       “a) OASAM revised its purchase card policies to specify the documentation agencies must
       maintain to support purchase card transactions. The revised Purchase Card Handbook, issued on
       March 11, 2004, specifies the documentation requirements of purchase card transactions. Pages
       10-11 of the Handbook, provides program participants with guidance to clarify what
       documentation must be maintained as support for purchases.

       b) OASAM established procedures for all agencies to follow and identified the consequences of
       instances of missing cardholder statements or lack of adequate documentation. In a
       memorandum, dated August 6, 2002, the DOL Procurement Executive identified the requirements
       for supporting documentation and referred program participants to the aforementioned Handbook
       for specific guidance. Furthermore, in his memorandum, the Procurement Executive provided
       program participants with an attachment to be used when the existing documentation is deemed
       inadequate or missing. In addition, on June 13, 2003, DOL’s Purchase Card Program Manager
       issued a memorandum identifying the consequences for instances of missing cardholder
       statements or lack of adequate documentation.

       c) OASAM established procedures to ensure that cardholders, approving officials, and other
       financial management and procurement staff are trained in the Department’s purchase card
       procedures and in their respective responsibilities. Through the revised handbook, issued on
       March 11, 2004, OASAM instituted mandatory training requirements for all program participants.
       All Program participants must successfully complete the GSA on-line Purchase Card course or
       equivalent.

       Based on the actions taken, OASAM will be submitting a request to the Office of Inspector
       General requesting that these findings be closed. We will include copies of the aforementioned
       guidance, policies and procedures.”

       Auditors’ Conclusion

       We concur with the actions taken by management, and will evaluate the impact of revised
       policies and procedures during the FY 2004 audit. This recommendation remains resolved and
       open pending evidence that reflects the actions taken have substantially resolved the issues
       addressed in this finding.


5.     Black Lung Disability Trust Fund
       Status of Prior Year Findings and Recommendations

       Inaccurate Responsible Mine Operator Accounts Receivable Balances

       In the FY 1999 Management Advisory Comments (OIG Report No. 12-00-006-16-001), the OIG
       included recommendations concerning Responsible Mine Operator (RMO) Accounts Receivable
       Balances sent to the Solicitor’s Office. These accounts often remain at the Solicitor’s Office for
       extended periods of time but are not updated as appropriate while there.


Report No. 22-04-002-13-001                                                                           33
                                                       CFO FINDINGS AND RECOMMENDATIONS



        The following recommendation was made to the Division of Coal Mine Workers’ Compensation
        (DCMWC):

        •   DCMWC should update each account receivable no less frequently than once a year for
            disability benefits and medical bills paid since the account was last updated.

        During our audit testing for FY 2003, we noted that only 8 of 15 accounts had correct balances.
        The remaining seven accounts were not updated with benefits and or medical bills paid, or were
        updated with unsupported balances. Management is continuing to create additional monitoring
        reports to better assist in the updating process. Therefore, this recommendation remains resolved
        and open. The accuracy of the RMO Accounts Receivable balances will be reviewed during the
        FY 2004 audit. Closure is dependent on evidence that indicates the accounts receivable balances
        are updated and accurate.

        Management’s Response

        “OWCP is committed to updating the accounts once a year. Auditors stated a preference for the
        updates to be done toward the end of the fiscal year. OWCP will complete an update in the fourth
        quarter of 2004.”

        Auditors’ Conclusion

        This recommendation remains resolved and open. We will evaluate the accuracy of accounts
        receivable balances during the FY 2004 audit.


6.      Federal Employees Compensation Act (FECA)
        Current Year Findings and Recommendations

     a. Lack of Social Security Wage Authorizations

        The FECA Procedure Manual, Chapter 2-812(5) requires the Office of Workers’ Compensation
        Programs to mail each claimant annually a Form CA-1032 Report of Earnings and Dependents to
        verify the status of dependents and any and all earnings of the claimants during the year. The
        information received is reviewed by the Claims Examiner (CE) and the claimant’s compensation
        rate or amount is adjusted accordingly. The CE may also obtain independent confirmation of the
        earnings information from the Social Security Administration (SSA) if OWCP suspects outside
        employment or earnings.

        The FECA Procedure Manual, Chapter 2-812(9)(b)(1) and FECA Bulletin 01-04 requires Form
        CA-935 (a cover letter) along with Form SSA-581 Authorization to Obtain Earnings Data From
        the Social Security Administration be released to the claimant to obtain authorization to request
        SSA wage information, on an annual basis. A second request is to be sent to the claimant within
        30 days if the authorization form is not received. If the second request is not received within 30
        days, the case must be referred to the OIG for investigation.

        During the FY 2003 audit, we tested 74 compensation cases that required a Form SSA-581 be
        sent to the claimant (based on the date of the latest form and whether the claimant had been on


Report No. 22-04-002-13-001                                                                            34
                                                     CFO FINDINGS AND RECOMMENDATIONS


       the periodic roll longer than one year). Of the 74 cases, 21 cases (28 percent) did not have a
       current SSA-581 form in the case file as required by FECA policy. Seventeen of the 21 were
       never sent to the claimant. Of the four that were sent, one was returned unsigned, and three were
       never returned. In addition, of the three not returned, second requests were not issued nor were
       the three cases referred to the OIG.

       The lack of current SSA authorization forms occurred because OWCP does not have automated
       procedures to ensure the timely request and receipt of this required claimant information.
       Therefore, the system relies upon the ad-hoc tracking systems utilized by the individual CEs in
       each of the District offices.

       Although submission of a Form SSA-581 annually is not a requirement for continuing eligibility,
       it is a strong additional control to enable independent verification of earnings. Without the Form
       SSA-581 authorizations, OWCP cannot obtain independent SSA verification to support
       continuing eligibility for compensation payments when conditions warrant.

       Recommendation

        We recommend that the Chief Financial Officer and the Assistant Secretary for
        Employment Standards develop an adequate system to ensure that Claims Examiners
        obtain and review SSA-581 forms as required by FECA program policy.

       Management’s Response

       “As noted by the OIG, this issue relates to procedures that OWCP has in place to enable
       verification of earnings if verification is warranted. However, our managers have been reminded
       that compliance with this policy is needed. It is expected that once the new integrated computer
       system is implemented in 2004, this problem will be mitigated. The system has an automated
       tracking mechanism to alert the claims staff to send the form and to follow-up if it has not been
       returned. We trust that the implementation of the new system will address this issue.”

       Auditors’ Conclusion

       Management indicates the new system will address this weakness, but this system has not yet
       been implemented. Management has not provided a detailed corrective action plan that
       specifically identifies how this recommendation will be addressed. In addition, management has
       not indicated how this weakness will be addressed until the system is implemented. Therefore,
       this recommendation is unresolved, pending receipt and review of a detailed corrective action
       plan with timeframes for completion.


   b. Medical Bill Sampling

       Previous OIG reports cited numerous errors in medical bill processing. These errors were due to
       the inaccurate keying of bills or mistakes in the bill resolution process. In response to these
       findings, OWCP issued FECA Bulletin No. 98-05 in 1998. This bulletin requires a minimum of
       42 individual bills and 1 percent of completed bill batches be sampled each month for review.
       The review must be performed by a supervisory-level employee who is not involved in bill pay
       resolution. It also requires quarterly reporting to the FECA National Office.




Report No. 22-04-002-13-001                                                                          35
                                                      CFO FINDINGS AND RECOMMENDATIONS


       During the FY 2003 audit, we noted that in the Philadelphia, Jacksonville, and San Francisco
       District offices, monthly medical bill sampling was not performed as required. The San Francisco
       District office indicated it has been unable to obtain the information needed to download the
       required data from the National Office due to the conversion to Microsoft Windows XP. The
       Jacksonville District Office cited workload and other OWCP changes, and the Philadelphia
       District Office did not provide an explanation for the lack of compliance.

       The independent review of medical bills is an important internal control to ensure the accuracy,
       quality, and security of the bill processing operation. Our FY 2003 audit testing identified 5
       errors related to medical bill processing of the 238 medicals bills we tested (2 percent). These
       errors resulted in a net overpayment of $61,653. If the medical bill reviews are not performed, it
       increases the risk that management will fail to identify and correct errors and deficiencies in the
       medical bill processing on a timely basis. The risk that improper payments may be made is also
       increased.

       Additionally, the Improper Payments Act of 2002 (P.L. 107-300) and the related OMB
       implementation guidance (OMB Memo 03-13) requires that, effective FY 2004, because the
       FECA program is susceptible to significant overpayments, a statistically valid sample of
       payments must be tested to determine the extent of overpayments.

       Recommendation

        We recommend that the Chief Financial Officer and the Assistant Secretary for
        Employment Standards ensure that medical bills are reviewed on a timely basis at all
        District offices in accordance with FECA Bulletin No. 98-05 and that existing guidance is
        updated to reflect implementation of the Improper Payments Act in FY 2004.

       Management’s Response

       “In September of 2003, OWCP began implementation of contractor provided bill processing.
       With the implementation, OWCP began new methods of reviewing bill processing results. At
       this time, we have a regional group looking at whether bills are medically related and appropriate
       to the accepted condition. The system itself has complex sets of edits to ensure that bills are
       properly paid. The new system has more sophisticated checks for duplicate payments, and
       OWCP staff is closely reviewing bills processed. Over the next year, OWCP will codify new bill
       review processes.”

       Auditors’ Conclusion

       Management has indicated it will develop new bill review procedures now that the contractor
       provided bill processing has been implemented. This recommendation is unresolved, pending
       receipt and review of a corrective action plan detailing the new bill review procedures, with
       specific timeframes for completion.




Report No. 22-04-002-13-001                                                                            36
                                                      CFO FINDINGS AND RECOMMENDATIONS


7.     Performance Measures
       Status of Prior Year Findings and Recommendations

       The following recommendations were issued in an FY 1992 OIG audit report, (OIG Report No.
       03-93-034-03-315) directly to the appropriate Assistant Secretary. We request that the CFO work
       with the Assistant Secretary to address these recommendations.

       Unemployment Trust Fund

        •   Unemployment Insurance Service (UIS) should review validation methods for all other
            data elements contained on the Unemployment Insurance Required Reports.

       During FY 2003, the Unemployment Insurance Data Validation (UIDV) process was
       implemented. Full implementation of the UIDV program is pending the receipt of actual
       validation reports from all states. Therefore, this recommendation remains resolved and open.
       We will perform audit follow-up work after the UIDV program is fully implemented to evaluate
       whether this recommendation can be closed.

       Management’s Response

       “No change in response from FY 2002: OWS is implementing a system that will validate about
       1200 of the 2400 elements states must now report: The most important data elements will be
       validated; between UIDV and BAM reviews, we have systems to validate three of the four UI
       GPRA indicators (the fourth indicator cannot be validated because it is not yet implemented). We
       will await the results of OIG’s planned follow-up audit designed to close this finding.”

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.

        •   UIS should increase the period being validated from one month for quantity and one
            quarter for quality to an entire year.

       During our FY 2003 follow-up to prior years’ audit findings and recommendations, the Office of
       Workforce Security (OWS) disclosed that once UIDV is fully implemented, it will determine
       whether there are substantial benefits to conduct the validation on a full year’s data. As of
       December 2, 2003, less than half the states have submitted a validation report. These states are
       validating one quarter of data. Therefore, until OWS develops a corrective action plan to address
       increasing the validation period beyond one quarter, this recommendation is unresolved.

       Management’s Response

       “No change in response from FY 2002: Because most reports are fully automated, a test and
       correction of report-writing code over a short period of time is as good as over a longer period,
       ETA does not believe there is value in lengthening the validation period.”




Report No. 22-04-002-13-001                                                                            37
                                                      CFO FINDINGS AND RECOMMENDATIONS


       Auditors’ Conclusion

       This recommendation remains unresolved. As mandated by the CFO Act, agencies are required
       to provide reliable and accurate performance data to Congress and OMB. We believe that
       extending the validation period will decrease the potential for material misstatement of
       performance data in the DOL Report on Performance and Accountability.


8.     Property and Equipment
       Current Year Findings and Recommendations

       Construction in Progress (CIP) Invoices Were Not Always Accompanied By a Signed
       Transmittal Letter

       During FY 2003, we tested 43 randomly selected CIP invoices recorded in DOLAR$. This
       review disclosed that six paid invoices (14 percent) were not accompanied by a transmittal letter
       signed by an approving Job Corps official. This occurred because there were not written
       procedures to ensure that the CIP invoices were accompanied by a signed transmittal letter from
       the approving Job Corps official. As a result, there was no documentation to support that the
       appropriate Job Corps officials reviewed and recommended the invoice for payment.

       The financial management requirements contained in Title 31 U.S.C. 3325, Vouchers, state in
       part:

             (a)   A disbursing official in the executive branch of the United States
                   Government shall—
                       (1) disburse money only as provided by a voucher certified by—
                               (A) the head of the executive agency concerned; or an officer or
                               employee of the executive agency having written authorization
                               from the head of the agency to certify vouchers; . . .

       Furthermore, Treasury Financial Manual, Part 4, Chapter 2000, Section 2020.30, Preaudit of
       Vouchers, states in part:

              Effective control over disbursements requires the preaudit and approval of
              vouchers before they are certified for payment. The principle objectives of the
              preaudit of a voucher are to determine whether:

                   The required administrative authorizations for the procurement and approvals
                   for the payment were obtained. . . .

       Job Corps’ DBFS is responsible for approving CIP invoices. To assist in determining whether
       the work was performed and the invoice should be paid, DBFS uses the services of an A&E
       contractor. The A&E contractor will certify on the CIP invoices that the work was performed and
       payment should be made. DBFS will prepare and sign a transmittal forwarding the CIP invoice
       to ETA’s OFAS for payment.

       While there was evidence the six CIP invoices were reviewed and recommended for payment by
       the Job Corps’ A&E contractor, statute and procedures require that Job Corps DBFS officials



Report No. 22-04-002-13-001                                                                          38
                                                     CFO FINDINGS AND RECOMMENDATIONS


       provide a signed transmittal letter when forwarding the invoices to OFAS for payment. The lack
       of an approving Job Corps signature certifying the review and approval of CIP invoices prior to
       payment represents a departure from a significant internal control procedure, as well as non-
       compliance with Title 31 U.S.C. 3325.

       Recommendation

       We recommend that the Chief Financial Officer and ETA ensure that the Office of Job
       Corps and OFAS develop and implement written procedures that ensure all CIP invoices
       are accompanied by a transmittal letter signed by the appropriate DBFS official before
       being paid.

       Management’s Response

       “Formal instructions were issued to the OFAS, DFSS Accounts Payable Team, by e-mail dated
       9/23/03, from the Operations Unit Supervisor. These instructions specifically stated that staff
       must verify that all memoranda are signed by an authorizing official before invoices are
       scheduled for payment. In addition, Certifying Officers are instructed not to certify payments that
       do not bear the signature or initials of the authorizing official.

       We furthermore incorporated this control in our draft national office policy and procedure
       manual, under Accounts Payable.”

       Auditors’ Conclusion

       We concur with management’s response and consider the recommendation resolved and open,
       pending issuance of the revised Accounts Payable section of the final national office policy and
       procedures manual. The recommendation will be closed based upon evidence collected in the
       FY 2004 audit that indicates invoices are being approved in accordance with management’s
       policy.




Report No. 22-04-002-13-001                                                                          39
